Office of Material Loss Reviews
Report No. MLR-10-046


Material Loss Review of Community
Bank & Trust, Cornelia, Georgia




                                  September 2010
                                      Executive Summary

                                      Material Loss Review of Community
                                      Bank & Trust, Cornelia, Georgia
                                                                                       Report No. MLR-10-046
                                                                                              September 2010

Why We Did The Audit

The FDIC Office of Inspector General (OIG) contracted with Crowe Horwath LLP to conduct a material
loss review of Community Bank & Trust (CBT), Cornelia, Georgia.

On January 29, 2010, the Georgia Department of Banking and Finance (DBF) closed CBT and named the
FDIC as receiver. On March 1, 2010, the FDIC notified the OIG that CBT’s total assets at closing were
$1.2 billion and the estimated loss to the Deposit Insurance Fund (DIF) was $345.4 million. As of
August 6, 2010, the estimated loss had declined to $336.1 million. As required by section 38(k) of the
Federal Deposit Insurance Act, and as amended by Dodd-Frank Wall Street Reform and Consumer
Protection Act, the OIG conducted a material loss review of the failure of CBT and retained Crowe
Horwath for this purpose.

The audit objectives were to (1) determine the causes of the financial institution’s failure and resulting
material loss to the DIF and (2) evaluate the FDIC’s supervision of the institution, including
implementation of the Prompt Corrective Action (PCA) provisions of section 38.


Background

CBT was a state nonmember bank that opened in 1900 and became insured in 1934. CBT’s operations
were located in northeast Georgia, with a main office in Cornelia, Habersham County, and 36 branches
throughout the region. CBT also operated a trust department and printing shop and fully owned two
subsidiaries, Financial Supermarkets, Inc. and Financial Properties, Inc. All shares of CBT were owned
by its holding company, Community Bankshares, Inc., Cornelia, Georgia, which also owned community
banks in LaGrange, Georgia and Union Springs, Alabama.

CBT was a traditional community bank and its lending was concentrated in commercial real estate (CRE)
lending, including acquisition, development, and construction (ADC) loans. The bank’s CRE and ADC
concentrations primarily related to financing speculative residential construction and some residential
loans made to rehabilitate depressed properties.


Audit Results

Causes of Failure and Material Loss

CBT’s failure can be attributed to inadequate oversight by the Board of Directors (Board) and
management. In particular, the bank’s control environment was not commensurate with the risk
associated with increasing concentrations in CRE and ADC loans. CBT was also negatively impacted by
the Board and management relying too heavily for an extended period of time on a senior official’s
expertise and authority rather than establishing sound practices and controls. The Board and management
were also slow to respond to examiner recommendations and supervisory actions and did not implement
sound risk management practices, particularly related to loan underwriting and credit administration



                                  To view the full report, go to www.fdicig.gov
   Executive Summary
                                      Material Loss Review of Community
                                      Bank & Trust, Cornelia, Georgia
                                                                                       Report No. MLR-10-046
                                                                                              September 2010

activities. Finally, CBT lacked adequate controls over lending operations, which likely contributed to
inappropriate lending activities that were associated with substantial losses.

The FDIC’s Supervision of CBT

Through its supervisory efforts, the FDIC identified and documented key risks and deficiencies at the
bank, including CBT’s weak Board and management oversight and inadequate risk management
practices. From 2006 to 2009, the FDIC and the DBF conducted four safety and soundness examinations
and one visitation of CBT.

In 2006 and 2007, examiners assigned CBT a composite rating of “2”, indicating that they considered the
institution to be fundamentally sound and there were no material supervisory concerns. The impact of
poor Board and management oversight, coupled with weaknesses in risk management practices, was more
fully exposed at the October 2008 examination when the economy had weakened, and the bank received a
composite rating of “4”. However, by the time the FDIC had downgraded the risk management rating
and issued a Cease and Desist Order in early 2009, these actions and the bank’s responses were
insufficient to prevent continued significant losses and the rapid erosion of capital, which led to the
eventual insolvency of the institution. Given CBT’s increasing level of risk, earlier and greater emphasis
on these aspects of the bank’s operations may have been prudent.

Based on the supervisory actions taken with respect to CBT, the FDIC properly implemented the
applicable PCA provisions of section 38.

Management Response

After we issued our draft report, management officials provided additional information for our
consideration, and we revised our report to reflect this information, as appropriate. On August 25, 2010,
the Director, Division of Supervision and Consumer Protection (DSC), provided a written response to the
draft report. That response is provided in its entirety on page II-2 of this report.

DSC reiterated the OIG’s conclusions regarding the causes of CBT’s failure and the FDIC’s supervision
of the bank. Additionally, DSC stated that it recognizes the threat that institutions with high-risk profiles,
such as CBT, pose to the DIF. According to DSC, it continues to look for and implement improvements
to its supervisory program that focus on stabilizing an institution’s risk profile and strengthening its
financial condition. DSC issued Interagency Guidance on CRE Monitoring in 2006 and a Financial
Institution Letter to banks on Managing Commercial Real Estate Concentrations in a Challenging
Environment in 2008 that re-emphasized the importance of robust credit risk-management practices for
institutions with concentrated CRE exposures and set forth broad supervisory expectations.




                                  To view the full report, go to www.fdicig.gov
Federal Deposit Insurance Corporation                                                Office of Material Loss Reviews
3501 Fairfax Drive, Arlington, VA 22226                                                   Office of Inspector General




DATE:                                     September 1, 2010

MEMORANDUM TO:                            Sandra L. Thompson, Director
                                          Division of Supervision and Consumer Protection


                                          /Signed/
FROM:                                     Stephen M. Beard
                                          Assistant Inspector General for Material Loss Reviews

SUBJECT:                                  Material Loss Review of Community Bank & Trust,
                                          Cornelia, Georgia (Report No. MLR-10-046)


The subject final report is provided for your information and use. Please refer to the Executive
Summary, included in the report, for the overall audit results. The report did not contain
recommendations, thus a response was not required. However, the Division of Supervision and
Consumer Protection provided a written response on August 25, 2010. We incorporated the
response into Part II of the final report.

If you have questions concerning the report, please contact me at (703) 562-6352 or
Mike Lombardi, Audit Manager, at (703) 562-6328. We appreciate the courtesies extended to
the audit staff.

Attachment

cc: Thomas J. Dujenski, Regional Director, DSC
    Elaine D. Drapeau, Acting Chief, Office of Internal Control and Review, DSC
    James H. Angel, Jr., Director, OERM
                          Table of Contents

Part I

   Report by Crowe Horwath LLP                               I-1
   Material Loss Review, Community Bank & Trust, Cornelia,
   Georgia

Part II

   OIG Evaluation of Management Response                     II-1

   Corporation Comments                                      II-2
          Part I

Report by Crowe Horwath LLP
         Material Loss Review
        Community Bank & Trust
             Cornelia, GA




Prepared for the
Federal Deposit Insurance Corporation
Office of Inspector General
                               Contents
                                                                Page
Executive Summary                                                I-1

Background                                                       I-3

Causes of Failure and Material Loss                              I-4
  Board and Management Oversight                                 I-4
  CRE and ADC Concentrations                                     I-7
  Risk Management Practices                                      I-9

The FDIC’s Supervision of CBT                                   I-11
   Supervisory History                                          I-12
   Supervisory Response to Board and Management Oversight       I-13
   Supervisory Response to CRE and ADC Concentrations           I-15
   Supervisory Response to Risk Management Practices            I-17
   Implementation of PCA                                        I-18

Appendices                                                      I-20
  1. Objectives, Scope, and Methodology                         I-20
  2. Glossary of Terms                                          I-23
  3. Acronyms                                                   I-27

Tables
   1. Financial Information for CBT                               I-3
   2. CBT’s Examination History from 2006 to 2009               I-12
   3. C&D Provisions Not Complied With by CBT – December 2009   I-15
   4. Summary of Capital Categories for CBT                     I-18

Figures
   1. Composition of CBT’s Loan Portfolio from 2005 to 2009      I-7
   2. CBT’s Charge-off on Loans and Leases for the Year Ended    I-9
      December 31, 2009




 
 



                                                                               
           Crowe Horwath LLP
           Independent Member Crowe Horwath International

 
     

    August 31, 2010

    EXECUTIVE SUMMARY

    Stephen M. Beard
    Assistant Inspector General for Material Loss Reviews
    Federal Deposit Insurance Corporation
    3501 North Fairfax Drive
    Arlington, VA 22226

    RE:    Transmittal of Results for the Material Loss Review Report for
           Community Bank & Trust, Cornelia, Georgia

    Dear Mr. Beard:

    This letter is to acknowledge delivery of our performance audit report on the results of
    the Material Loss Review for Community Bank & Trust (CBT), Cornelia, Georgia, in
    accordance with Task Order Number 0001 (10-04), dated April 5, 2010. The objectives
    of this performance audit were to (1) determine the causes of CBT’s failure and the
    resulting material loss to the Deposit Insurance Fund and (2) evaluate the FDIC’s
    supervision of CBT, including the FDIC’s implementation of the Prompt Corrective
    Action (PCA) provisions of section 38.

    Causes of Failure

    CBT’s failure can be attributed to inadequate oversight by the Board of Directors (Board)
    and management. In particular, the bank’s control environment was not commensurate
    with the risk associated with excessive concentrations in commercial real estate and
    acquisition, development, and construction loans. CBT was also negatively impacted by
    the Board and management relying too heavily for an extended period of time on a senior
    official’s expertise and authority rather than establishing sound practices and controls.
    The Board and management were also slow to respond to examiner recommendations and
    supervisory actions and did not implement sound risk management practices, particularly
    related to loan underwriting and credit administration activities. Finally, CBT lacked
    adequate controls over lending operations, which likely contributed to inappropriate
    lending activities that were associated with substantial losses.




                                                            I-1
     
 



Evaluation of Supervision

Through its supervisory efforts, the FDIC identified and documented key risks and
deficiencies at the bank, including CBT’s weak Board and management oversight and
inadequate risk management practices. From 2006 to 2009, the FDIC and the State of
Georgia Department of Banking and Finance conducted four safety and soundness
examinations and one visitation of CBT.

In 2006 and 2007, examiners assigned CBT a composite rating of “2”, indicating that
they considered the institution to be fundamentally sound and there were no material
supervisory concerns. However, the impact of poor Board and management oversight,
coupled with weaknesses in risk management practices, was more fully exposed at the
October 2008 examination, when the economy had weakened. Given CBT’s increasing
level of risk, earlier and greater emphasis on these aspects of the bank’s operations may
have been prudent.

Prompt Corrective Action

Based on the supervisory actions taken with respect to CBT, we determined that the
FDIC properly implemented applicable PCA provisions of section 38.

We conducted our performance audit in accordance with Generally Accepted
Government Auditing Standards. Those standards require that we plan and perform the
performance audit to obtain sufficient, appropriate evidence to provide a reasonable basis
for our findings and conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based on
our audit objectives.

Consistent with our contract with the Office of Inspector General (OIG), the report does
not contain formal recommendations. Instead, as major causes, trends, and common
characteristics of institution failures are identified in the OIG’s material loss reviews, the
OIG will communicate those to FDIC management for its consideration. As resources
allow, the OIG may also conduct more comprehensive reviews of specific aspects of the
FDIC’s supervision program and make recommendations as warranted. A further
discussion of OIG-related coverage of financial institution failures can be found in the
Objectives, Scope, and Methodology section of our report.

The information included in this draft report was obtained during our fieldwork, which
occurred during the period from May 2010 through July 2010.

Very truly yours,




                                              I-2

 
 


Background

On January 29, 2010, the Georgia Department of Banking and Finance (DBF) closed
Community Bank & Trust (CBT) and named the FDIC as receiver. The FDIC notified
the Office of Inspector General (OIG) on March 1, 2010 that CBT’s total assets at closing
were $1.2 billion and the estimated loss to the Deposit Insurance Fund (DIF) was
$345.4 million. The estimated loss exceeds the $200 million threshold for losses
occurring between January 1, 2010 and December 31, 2011, as established by the Dodd-
Frank Wall Street Reform and Consumer Protection Act (Financial Reform Act), signed
into law July 21, 2010. The OIG was required by section 38(k) of the Federal Deposit
Insurance (FDI) Act, as amended by the Financial Reform Act, to conduct a material loss
review of the failure of CBT, and retained Crowe Horwath LLP for this purpose. 1

CBT was a state nonmember bank that opened in 1900 and became insured in 1934.
CBT’s operations were located in northeast Georgia, with a main office in Cornelia,
Habersham County, and 36 branches throughout the region. CBT also operated a trust
department and printing shop and fully owned two subsidiaries, Financial Supermarkets,
Inc. and Financial Properties, Inc. All shares of CBT were owned by its holding
company, Community Bankshares, Inc., Cornelia, Georgia, which also owned
community banks in LaGrange, Georgia and Union Springs, Alabama.

CBT was a traditional community bank and its lending was concentrated in commercial
real estate (CRE) lending, including acquisition, development, and construction (ADC)
loans.

Table 1 provides details on CBT’s financial condition as of September 2009, and for the
4 preceding calendar years.

Table 1: Financial Information for CBT
Financial Measure                                             Sep-09          Dec-08      Dec-07     Dec-06    Dec-05
Total Assets ($000s)                                          1,211,027      1,276,651   1,103,355   921,960   780,257
Total Loans ($000s)                                             901,864        992,432     853,474   700,906   598,912
Loan Growth                                                      -9.13%         16.28%     21.77%    18.16%    11.38%
Total Deposits ($000s)                                        1,099,308      1,039,356     963,405   785,306   652,989
Net Income (Loss) ($000s)                                     (64,484)         (6,313)     10,710     11,478   12,457
Source: Uniform Bank Performance Reports (UBPR).


                                                           
1
 In conducting this performance audit and preparing this report, Crowe Horwath LLP relied primarily on
information provided by the FDIC OIG and Division of Supervision and Consumer Protection (DSC).
Appendix 1, Objectives, Scope, and Methodology, describes in greater detail the procedures used by Crowe
Horwath LLP.




                                                                       I-3

 
 



Causes of Failure and Material Loss
CBT’s failure can be attributed to inadequate oversight by the Board and management.
In particular, the bank’s control environment was not commensurate with the risk
associated with increasing concentrations in CRE and ADC loans. CBT was also
negatively impacted by the Board and management relying too heavily for an extended
period of time on CBT’s former Chief Executive Officer’s (CEO) expertise and authority
rather than establishing sound practices and controls. The Board and management were
also slow to respond to examiner recommendations and supervisory actions and did not
implement sound risk management practices, particularly related to loan underwriting
and credit administration activities. Finally, CBT lacked adequate controls over lending
operations, which likely contributed to inappropriate lending activities that were
associated with substantial losses.

Board and Management Oversight

CBT’s reliance on a former CEO’s expertise and authority and later changes in senior
management impacted the institution’s ability to respond to changing economic
conditions and examiner recommendations and contributed to inadequate risk
management practices and noncompliance with loan policies.

Changes in Senior Management

CBT’s CEO and President exerted primary control over the bank’s loan underwriting and
credit administration functions for more than 20 years. After his death in 2005, it became
apparent that the bank lacked management depth and an effective succession plan, as the
Board and management were unable to demonstrate sound management practices and
effective internal controls over lending activities.

Our discussions with FDIC examiners revealed that CBT’s Board and management had
relied on this individual’s expertise to make proper decisions for the bank and to deal
with any issues that arose. Examiners also indicated that although this individual had the
requisite experience and knowledge to lead the bank, other members of management and
the Board lacked good leadership and decision-making skills. Further, this reliance
apparently led to the bank not sufficiently establishing adequate policies and procedures
for governance purposes. For example, the June 2006 Report of Examination (ROE) 2
noted that CBT had weak mechanisms for monitoring ADC loans, loan renewals were not
adequately tracked, and credit approval memoranda were not updated. These types of
issues persisted until the bank was closed in January 2010.




                                                           
2
  Unless otherwise noted in this report, references to examination dates will refer to the month and year of
the examination start dates. 
                                                              I-4

 
 


Numerous changes in the bank’s senior leadership also occurred from 2006 through
CBT’s closing. For example:

          In November 2006, the individual who replaced the former CEO and
           President resigned after holding office for just 1 year.

          A newly elected CEO and President ran the bank until June 2009.

          In June 2009, a new individual was elected as CEO for the bank.

          In July 2009, the Senior Lending Officer resigned.

          In September 2009, the Chief Financial Officer resigned.

Along with other factors, the changes in senior leadership during a period of rapid decline
in the economic conditions in the bank’s market area likely contributed to examiners
stating in the 2008 and 2009 examination and visitation reports that, among other things:

          Board and senior management oversight was deficient;

          Board and management had not complied with numerous provisions contained
           in a May 2009 Cease and Desist Order (C&D); and

          Board and management did not establish proper risk management practices,
           effective internal controls, and adequate reporting and monitoring procedures.

Finally, the May 2009 C&D indicated that the bank was operating with less than
satisfactory management and Board oversight whose policies and procedures and
strategic plan were damaging to the bank and jeopardized its safety and soundness.

Implementation of Examiner Recommendations

CBT’s Board and management were slow to respond to examiners’ concerns and
implement their recommendations. Examiners identified various weaknesses with CBT’s
loan underwriting and credit administration beginning in 2004, with additional comments
and recommendations made to bank management during the 2006 and 2007
examinations. Examiners elevated their concerns and reported continued significant
problems in loan underwriting and credit administration during the October 2008
examination and noted that CBT’s Board and management had not implemented
corrective actions timely. Significant weaknesses identified during the 2004 through
2007 examinations were also evident in the October 2008 examination and included:




                                            I-5

 
 


          Insufficient borrower financial and cash flow analyses.

          Insufficient appraisal review processes.

          Inadequate monitoring of construction lending.

          Inadequate management tracking systems.

          Inaccurate management reporting systems.

These continued deficiencies and failure to fully respond to examiner recommendations
resulted in the issuance of the May 2009 C&D referenced earlier.

Lack of Adequate Lending Controls

For the period covered by our review (2006-2010), the Board and senior management had
decentralized the lending function and appointed division presidents to manage all
banking operations at branches within their designated counties. The division presidents
had lending authority and were authorized to originate loans, as well as manage their own
portfolios. Some divisions with larger portfolios and increased activity had multiple
lenders. This structure appeared to promote a lack of standard practices, particularly with
regard to monitoring construction lending. In addition, compliance with the loan policy
was not effectively monitored and approval authorities were not always followed.

The lack of adequate internal controls likely contributed to a former senior lending
officer being able to (1) make loans that were inconsistent with prudent lending practices
and which resulted in benefits to certain customers of the bank; (2) fund advances and
assign loans to other lending officers; and (3) grant a $500,000 letter of credit to a
customer without proper approval and conceal this letter of credit by not recording it on
the letter of credit ledger. Additionally, these actions apparently violated provision 6.b of
the May 2009 C&D which prohibited CBT from extending, directly or indirectly, any
additional credit to, or for the benefit of, any borrower who had a loan or other extension
of credit from CBT that had an uncollected balance and was classified substandard. Loan
losses associated with this particular senior lender’s portfolio were estimated by the bank
and the FDIC at no less than $10 million. Additional instances of questionable lending
activity involving other bank officers have been found since CBT was closed.

Further, the Board and management did not sufficiently monitor credit quality. As an
example, during the October 2008 examination, examiners identified the need for an
additional $16 million to be allocated to the Allowance for Loan and Lease Losses
(ALLL) as of September 30, 2008. In addition, the loan review function did not
adequately identify issues with problem loans and management reports for loan
monitoring were incomplete or inaccurate.




                                             I-6

 
 


CRE and ADC Concentrations

Management pursued growth in CRE and ADC concentrations without recognizing and
controlling risk to the bank if economic conditions deteriorated, which resulted in
increasing loan losses. Additionally, CBT grew its CRE and ADC lending without
proper loan underwriting and credit administration, as discussed in the next section of this
report. The FDIC issued guidance in 1998 on ADC lending emphasizing that
management’s ability to identify, measure, monitor, and control portfolio risk through
effective underwriting policies, systems, and internal controls was crucial to a sound
ADC lending program. 3

CBT’s loan portfolio increased from approximately $599 million at December 31, 2005
to $992 million at December 31, 2008, with much of the growth centered in CRE and
ADC lending. CRE and ADC lending grew from $338 million at December 31, 2005 to
$563 million at December 31, 2008. Figure 1 shows the composition of CBT’s loan
portfolio in the years leading to its failure.

Figure 1: Composition of CBT’s Loan Portfolio from 2005 to 2009




Source: UBPRs for CBT.
                                                           
3
 Financial Institution Letter (FIL)-110-98, entitled, Internal and Regulatory Guidelines for Managing Risks
Associated with Acquisition, Development, and Construction Lending, dated October 8, 1998.
                                                              I-7

 
 


At the time of the October 2008 examination, CRE loans represented 657 percent of total
capital, including ADC loans that represented 328 percent of total capital. The bank’s
CRE and ADC concentrations primarily related to speculative residential construction
loans and some residential loans made to rehabilitate depressed properties.

On December 12, 2006, the federal banking regulatory agencies issued Joint Guidance on
Concentrations in Commercial Real Estate Lending, Sound Risk Management Practices
(Joint Guidance), to reinforce existing regulations and guidelines for real estate lending
and safety and soundness. 4 The Joint Guidance focuses on those CRE loans for which
cash flow from real estate is the primary source of repayment (i.e., ADC lending). The
Joint Guidance states that the agencies had observed an increasing trend in the number of
institutions with concentrations in CRE loans and noted that rising CRE concentrations
could expose institutions to unanticipated earnings and capital volatility in the event of
adverse changes in the general CRE market. Further, the Joint Guidance defines
institutions with significant CRE concentrations as those reporting loans for construction,
land and development, and other land representing 100 percent or more of total capital, or
institutions reporting total CRE loans representing 300 percent or more of total capital,
where the outstanding balance of CRE had increased by 50 percent or more during the
prior 36 months.

Additionally, the FDIC issued FIL-22-2008 entitled, Managing Commercial Real Estate
Concentrations in a Challenging Environment, dated March 17, 2008, to reemphasize the
importance of strong capital and loan loss allowance levels, and robust credit risk-
management practices for institutions with concentrated CRE exposures. CBT’s CRE
and ADC concentrations exceeded the levels identified in the Joint Guidance at the time
the guidance was issued and continued to increase steadily thereafter.

As noted in CBT’s October 2008 examination report, the declining real estate values in
CBT’s market area resulted in an increase in adversely classified ADC credits.
Specifically, while ADC loans represented less than 20 percent of the total loan portfolio
at December 31, 2008, these loans accounted for a disproportionate volume of loan
losses, including 37.8 percent of charge-offs recorded in 2009. As shown in Figure 2,
ADC loans charged off totaled over $15 million during 2009.




                                                           
4
 The guidance (FIL-104-2006) was issued jointly by the Office of the Comptroller of the Currency, the
Board of Governors of the Federal Reserve System, and the FDIC (collectively referred to as “the
agencies” in the guidance). 
                                                              I-8

 
 


Figure 2: CBT’s Charge-off on Loans and Leases for the Year Ended
          December 31, 2009




Source: CBT Call Reports.

Risk Management Practices

FIL-22-2008 also recommended key risk management processes to help institutions with
significant ADC and CRE concentrations manage through changes in market conditions.
Many of the weaknesses in CBT’s credit risk management practices identified in the
October 2008 examination report can be associated with one or more of the key risk
management processes discussed in this guidance. Those weaknesses included, but were
not limited to:

           the failure to place loans on nonaccrual status and recognize problem loans in
            a timely manner;

           numerous instances in which accrued interest was capitalized into loan
            balances at renewals;

           insufficient financial and global cash flow analysis;

           insufficient monitoring of construction projects; and

           inadequate appraisal and appraisal review processes.



                                             I-9

 
 



As the bank’s exposure to risk increased commensurate with higher levels of CRE and
ADC concentrations in a declining economy, these weaknesses, primarily involving loan
underwriting and credit administration, contributed to the asset quality problems that
developed and ultimately caused losses and eroded capital.

Loan Underwriting

According to the FDIC’s Risk Management Manual of Examination Policies
(Examination Manual), the degree of risk in a real estate loan depends primarily on the
loan amount in relation to collateral value, the interest rate, and most importantly, the
borrower’s ability to repay in an orderly fashion. Undue reliance should not be placed
upon a property’s appraised value in lieu of an adequate initial assessment of a debtor’s
repayment ability. CBT’s Board and management failed to develop and follow prudent
underwriting standards, particularly related to CRE and ADC lending. The October 2008
examination identified a number of issues related to loan underwriting, some of which
had been identified in prior examinations.

Loan Underwriting Analysis and Documentation. During the October 2008
examination, examiners found that CBT’s credit files generally lacked comprehensive
loan underwriting analysis. Loan files, including renewed problem loans, lacked current
financial information, adequate global cash flow analysis, and sufficient loan officer
commentary to support appropriate credit underwriting decisions. Additional
underwriting weaknesses included limited borrower equity and continued advancements
of funds to problem borrowers without analysis or support for repayment.

Significant underwriting weaknesses were identified by examiners in the October 2008
examination related to a large mortgage originator, as 19 loans were foreclosed or in the
process of being foreclosed and at least two borrowers alleged that they were not party to
any loans or recipients of loan proceeds (potential defalcations). Additionally, the entire
portfolio of loans referred by the originator and several other loans to related interests and
principals of the originator were listed for Special Mention. Examples of underwriting
weaknesses in the mortgage originator portfolio included loans with loan-to-value ratios
in excess of policy limits, loans originated by a loan officer in excess of his authority
without evidence of appropriate authorization, and renovation/construction inspections
not on file.

Capitalization of Interest and Frequent Loan Renewals. At the October 2008
examination, numerous instances were identified in which accrued interest was
capitalized and added to the loan balance, as part of the loan renewal process, so that
principal and accrued interest were not due until the end of the new repayment period.
Loan files lacked adequate support and documentation for capitalizing accrued interest.
In some instances, the capitalization of interest was not appropriate due to the
questionable ability of the borrower to repay the principal on the loan. At least
$2 million in capitalized interest was identified in the loans subject to adverse
classification during the October 2008 examination.

                                             I-10

 
 



Examiners also noted loans originated to provide funds to borrowers or their related
interests to pay interest due on existing loans. Additionally, loans were frequently
underwritten with a 1-year maturity. The October 2008 examination noted that
24 percent of total loans were underwritten with a single payment of principal and
interest at maturity. These practices facilitated multiple loan renewals and masked
problems with loans that were not amortizing or paying interest.

Credit Administration

Examiners expressed numerous concerns with the bank’s credit administration practices
during the October 2008 examination, including inadequate identification of adversely
classified assets and nonaccrual loans and real estate appraisal processes that needed
improvement.

Nonaccrual Loans. The October 2008 examination identified numerous loans that
should have been placed on nonaccrual status prior to the examination. Some of these
loans were instead renewed with interest and principal due at maturity. As a result,
management overstated income by recognizing interest that most likely would not be
collected. In addition, management failed to properly report the level of problem loans
within its quarterly Call Report.

Real Estate Appraisals and Review Program. The October 2008 examination reported
that CBT’s program for obtaining appraisals needed improvement and the appraisal
review process was ineffective. The examination identified numerous instances where
management did not obtain current appraisals or evaluations of appraisals. In some
cases, appraisals were insufficient to comply with regulatory standards. Additionally,
examiners noted several loans originated in excess of supervisory loan-to-value limits not
captured in management’s reports or reported to the Board.

Other Criticisms Related to Credit Administration. Examiners also noted that
construction loan practices were weak. There were instances where there were no loan
files, no records of inspections, and/or loan information did not agree with inspection
reports. There were also instances where information provided by loan officers was not
consistent with the results of subsequent inspections of the properties. In addition,
examiners noted that loan workout and collection practices needed to be strengthened.


The FDIC’s Supervision of CBT
Our review focused on the FDIC’s and the DBF’s supervisory oversight of CBT from
2006 through 2010. Through its supervisory efforts, the FDIC identified and documented
key risks and deficiencies at the bank, including CBT’s weak Board and management
oversight and risk management deficiencies. However, by the time the FDIC
downgraded the CAMELS ratings and issued supervisory actions in early 2009, these


                                           I-11

 
 


actions and the bank’s responses were insufficient to prevent continued significant losses
and the rapid erosion of capital, which led to the eventual insolvency of the institution.

Supervisory History

Between 2006 and 2009, the FDIC and the DBF conducted four examinations and one
visitation of CBT. In one case, the October 2008 examination, the FDIC initiated the
review 3 months after the statutory examination frequency requirement. 5 FDIC officials
explained that there were a large number of institutions in distress during 2008 that
required immediate attention and CBT was considered lower risk based on its prior
examinations and offsite monitoring.

CBT was historically a well-rated institution until 2009. Based on the October 2008
FDIC examination, however, CBT was downgraded to a composite “4” rating in early
2009 and became subject to a C&D issued on May 1, 2009. A joint visitation was
conducted in September 2009 to follow up on issues noted during the previous
examination as well as assess compliance with the May 2009 C&D, and a joint
examination was conducted in December 2009. Table 2 summarizes CBT’s examination
history during its last 4 years.

Table 2: CBT’s Examination History from 2006 to 2009
                                                              Risk Management Activities

Examination                          12/22/2009                   9/10/2009         10/27/2008   5/29/2007   6/19/2006
Date                                                             (Visitation)

Review                               N/A –Bank                   11/17/2009         2/26/2009    8/15/2007   7/24/2006
Completed                              Closed

Supervisory                               Joint                     Joint             FDIC         DBF        FDIC
Agency

UFIR                                  555555/5                    555555/5          444432/4     222221/2    222221/2

Classifications/                         546%                      195%               111%         24%         32%
T1+ALLL

Enforcement                           Bank was                   C&D dated          C&D dated      None        None
Action                                  closed                   5/01/2009          5/01/2009
                                      1/29/2010                    still in
                                                                   effect.

Sources: 2006 to 2008 ROEs; 2009 FDIC and State Visitation report; Supervisory History; and C&D dated
May 1, 2009.

                                                           
5
  Section 337.12 of the FDIC Rules and Regulations, which implements section 10(d) of the FDI Act,
requires annual full-scope examinations of every state nonmember bank at least once every 12-month
period and allows for 18-month intervals for small institutions (total assets of less than $500 million) if
certain conditions are satisfied. 
                                                                             I-12

 
 



FDIC offsite monitoring systems also identified CBT for review based on the bank’s Call
Reports as of June 30, 2008, September 30, 2008, and December 31, 2008. However,
each of these offsite reviews indicated that the concerns could be addressed at the
October 2008 FDIC examination, which was either about to commence, in process, or
recently completed at the time of these offsite reviews. Due to the processing times for
Call Report data and the time period provided for review, the offsite review based on the
June 30, 2008 Call Report data was completed October 13, 2008—2 weeks before the
examination was scheduled to start.

Supervisory Response to Board and Management Oversight

Although examiners noted weaknesses in earlier examinations, the October 2008
examination was the first to emphasize that the Board and management had failed to
establish an appropriate risk management program commensurate with the bank’s risk
profile, business activities, and concentrations of credit. The examination report further
indicated that CBT’s strategy to pursue loan growth, coupled with loan underwriting and
credit administration weaknesses and poor supervision of lending activities, aggravated
existing problems stemming from a depressed economy and real estate market.

Based on our interviews, examiners recognized the influence and importance of the prior
dominant CEO and President. Examiners noted that, up to and including 2005, the bank
did not have a succession plan and the passing of this individual in August 2005 left a
leadership void. Although the June 2006 FDIC examination identified the lack of a
succession plan, and examiners recommended that management develop one, CBT did
not do so at any time prior to its closing. The June 2006 FDIC examination report noted
that a management change had occurred due to the death of the previous CEO and
President, but new management had made a successful transition. The May 2007 DBF
examination report noted management was capable and well suited for the bank, although
there had been another change to the CEO and President in November 2006. In fact, the
Management component was rated a “2” until the October 2008 examination, when the
rating was downgraded to a “4”.

In retrospect, examiners should have placed greater emphasis on the extent and
significance of inadequate risk management practices when assigning the Management
component rating prior to the October 2008 examination. Additionally, although
examiners noted concerns with loan underwriting and credit administration as early as
2004, they did not fully recognize the impact of those deficiencies or take supervisory
action to address them until the 2008 examination.

In the October 2008 FDIC examination report, management was described as “deficient”
and examiners made the following comments:

          The Board and senior management have failed to establish an appropriate risk
           management program commensurate with the bank’s risk profile, business
           activities, and concentrations of credit.

                                           I-13

 
 


          Significant loan growth over the past 3 years, coupled with lax loan
           underwriting, approval, and administration functions, have aggravated
           existing problems stemming from a depressed economy and real estate
           market.

          Weak supervision of lending activities has allowed division presidents to
           operate their branches autonomously without requiring compliance with
           Board-approved policies and procedures, regulatory requirements, and
           prudent lending standards.

          The Board should assess the current management team and corporate structure
           to ensure that sufficient resources are in place to adequately oversee day-to-
           day affairs.

          The audit function did not provide coverage for the following key areas:
           construction lending, Regulation O compliance, and the adequacy of the
           ALLL.

Our review indicated that these weaknesses existed prior to the October 2008
examination and some were CBT’s standard operating procedures for a number of years,
but it was not apparent that they were fully considered when assigning CAMELS
component ratings in prior examinations.

As a result of the October 2008 examination, a C&D was issued in May 2009. During
the December 2009 examination, it was noted that the Board and management had not
complied with several provisions, as illustrated in Table 3.




                                          I-14

 
 


Table 3: C&D Provisions Not Complied With by CBT – December 2009
C&D Provision                                       December 2009 Examination Finding
Provision 2.a: Hire qualified management,           The bank was operating without a Chief
including a Chief Executive Officer, a Senior       Executive Officer, Senior Lending Officer, and
Lending Officer, and a Chief Financial Officer.     Chief Financial Officer.
Provision 3.a: Maintain a Leverage Capital          The Leverage Capital ratio was negative
ratio of not less than 8 percent.                   1.83 percent.
Provision 3.b: Maintain a Total Risk-based          The Total Risk-based Capital ratio was
Capital ratio of at least 10 percent.               negative 2.61 percent.
Provision 3.f: Capital shall be in addition to a    After considering examination findings, the
fully-funded ALLL.                                  ALLL was underfunded by $34.8 million.
Provision 7: Establish an effective internal        Loan rating downgrades totaled $106.4 million,
loan grading system.                                representing 42 percent of total examiner
                                                    classifications.
Provision 8: Revise and implement a written         The examination disclosed numerous instances
lending and collection policy.                      of loan policy contraventions. These issues
                                                    have been consistently noted by the bank’s
                                                    internal loan review function.
Provision 9: Perform a concentration analysis       Management did not perform a concentration
and establish a plan to reduce concentrations.      analysis that considered product type,
                                                    geographic distribution, underlying collateral,
                                                    or other asset groups. A plan to reduce
                                                    concentrations was not developed and
                                                    implemented.
Provision 10: Review the adequacy of the            There were contraventions of the Interagency
ALLL and establish a policy for determining         Policy Statement on the ALLL.
the adequacy of the ALLL.
Provision 12.b: Develop a Liquidity                 An adequate Liquidity Contingency Plan has
Contingency Plan.                                   not been developed.
Source: December 2009 Joint Examination.

FDIC officials stated that the failure to identify the breadth of the asset quality problems
earlier was due, in part, to the fact that loans were performing and the market was strong
prior to 2008, and the examiners were following practices in place at the time. The FDIC
has since taken steps to issue guidance and instruct examiners to (1) take a more
comprehensive, forward-looking approach to addressing risk management deficiencies
and (2) consider taking supervisory action earlier for banks with high-risk profiles and/or
weak risk management practices.

Supervisory Response to CRE and ADC Concentrations

Examiners first identified a concentration in ADC loans during the June 2006 FDIC
examination, as ADC loans were 127 percent of Tier 1 Capital at March 31, 2006.




                                                 I-15

 
 


Although ADC and CRE concentrations had grown to 166 percent and 353 percent of
Tier 1 Capital, respectively, as of December 31, 2006, the May 2007 DBF examination
report only noted that the concentrations were well monitored and managed. 6 It was not
until the 2008 examination that significant concerns related to the ADC and CRE
concentrations were identified and reported by the FDIC. At that time, CRE loans
represented 657 percent of total capital and ADC loans represented 328 percent of total
capital (as of September 30, 2008).

Examiners recommended in the October 2008 examination report that management
review and implement the Joint Guidance, as management had not effectively done so at
that point in time. In that report, examiners specifically recommended that management:

                    Expand the strategic plan to address CRE levels in relation to growth
                     objectives, financial targets, and the capital plan.

                    Develop strategies to manage concentration levels, including a contingency
                     plan to reduce or mitigate concentrations in the event of adverse CRE market
                     conditions.

                    Provide for strong management information systems for effective portfolio
                     management.

                    Expand management reporting to include analyses in response to potential
                     market events that could affect the CRE loan portfolio.

                    Expand lending policies to address underwriting standards such as
                     (1) minimum requirements for initial investment and maintenance of hard
                     equity by the borrower; (2) minimum standards for borrower net worth,
                     property cash flow, and debt service coverage; (3) requirements for feasibility
                     studies, sensitivity analysis, or stress testing; (4) loan terms; and (5) pricing
                     structures.

                    Implement practices governing loan disbursements to ensure minimum
                     borrower equity requirements are maintained throughout the development and
                     construction periods.

                    Perform portfolio-level stress tests or sensitivity analysis to quantify the
                     impact of changing economic conditions on asset quality, earnings, and
                     capital.


                                                           
6
  The June 2006 FDIC and May 2007 DBF examination reports identified ADC and CRE concentrations as
a percentage of Tier 1 Capital. The December 2006 Joint Guidance states that concentrations should be
monitored as a percentage of total capital. Per the UBPR for March 31, 2006, ADC loans were
114.76 percent of total capital and CRE loans were 437.32 percent of total capital. The December 31, 2006
UBPR noted ADC loans were 161.68 percent of total capital and CRE loans were 459 percent of total
capital.
                                                              I-16

 
 


The May 2009 C&D, issued as a result of the 2008 FDIC examination, also contained the
following provisions related to loan concentrations:

          Within 90 days from the effective date of the order, the bank was to perform a
           risk segmentation analysis with respect to the concentrations of credit noted in
           the ROE and any other concentration deemed important by the bank.
           Concentrations were to be identified by product type, geographic distribution,
           underlying collateral or other asset groups, which are considered economically
           related and in the aggregate represent a large portion of the bank’s capital
           account.
          A copy of this analysis was to be provided to the Supervisory Authorities and
           the Board agreed to develop a plan to reduce any segment of the portfolio
           which the Supervisory Authorities deemed to be an undue concentration of
           credit in relation to the bank’s capital account.

As discussed earlier, the bank had a period of high loan growth during 2007 and 2008,
which was concentrated in CRE and ADC loans. In retrospect, given the fact that
examiners had cited CBT in 2006 and 2007 for loan underwriting and credit
administration weaknesses, increased supervisory attention to the growing concentrations
may have been warranted during that same timeframe. Such attention would have been
consistent with the December 2006 Joint Guidance and may have helped focus
management’s attention on developing a contingency plan to reduce concentrations or
raise additional capital before the economy began to deteriorate.

Supervisory Response to Risk Management Practices

As discussed earlier in the report, examiners identified various issues with CBT’s loan
underwriting, credit administration, and risk management practices beginning in 2004,
and repeatedly thereafter. The 2006 examination found policies and procedures for the
credit function to generally be adequate, but identified several areas in need of immediate
improvement, including the lack of an adequate tracking system for loan exceptions.
However, examiners first recognized the depth of issues surrounding loan underwriting,
credit administration, and risk management practices and pursued a C&D at the 2008
examination. The C&D specifically stated that the bank was operating with lax loan
underwriting and weak credit administration practices.

A joint visitation of the FDIC and the DBF was conducted in September 2009 to follow
up on CBT’s implementation of the C&D provisions. The visitation noted that
management did not understand or identify all asset quality issues and was in non-
compliance with the C&D.

While the FDIC’s supervisory response to these issues prior to the 2008 examination was
generally consistent with practices in place at the time, examiners have since been
instructed to take a more aggressive, forward-looking approach to addressing risks like
those found at CBT. As discussed in earlier sections of this report, that approach would
likely involve a greater emphasis on bank management practices, additional and more
                                           I-17

 
 


affirmative recommendations for improvement, and/or earlier CAMELS rating
downgrades and supervisory action.

Implementation of PCA

The purpose of PCA is to resolve the problems of insured depository institutions at the
least possible long-term cost to the DIF. Part 325 of the FDIC Rules and Regulations
implements PCA requirements by establishing a framework for taking prompt corrective
action against insured state-chartered nonmember banks that are not adequately
capitalized. The FDIC is required to closely monitor the institution’s compliance with its
capital restoration plan, mandatory restrictions defined under section 38(e), and
discretionary safeguards imposed by the FDIC (if any) to determine if the purposes of
PCA are being achieved.

Based on the supervisory actions taken with respect to CBT, the FDIC properly
implemented applicable PCA provisions of section 38. Table 4 illustrates that CBT was
Well Capitalized for PCA purposes until the October 2008 examination when the
institution’s condition had already seriously deteriorated.

Table 4: Summary of Capital Categories for CBT
Examination/Visitation            As of Date              PCA Capital           Informal or Formal
       Date                                                Category                Action Taken

      June 19, 2006             March 31, 2006          Well Capitalized                None

      May 29, 2007            December 31, 2006         Well Capitalized                None

    October 27, 2008 *       September 30, 2008            Adequately            PCA Notification
                             December 31, 2008             Capitalized              2/9/2009
                                                                                  C&D 5/1/2009

    September 10, 2009         August 31, 2009           Significantly             PCA Directive
                                                        Undercapitalized             9/21/2009

                                                           Critically              PCA Directive
                             September 30, 2009         Undercapitalized             11/3/2009

Source: Reports of Examination, Progress Reports for CBT, and FDIC PCA Notifications.
* The examination report was issued February 26, 2009.

CBT was considered Adequately Capitalized based on the October 2008 examination and
the bank’s December 31, 2008 Call Report. As previously mentioned in this report, the
C&D signed on May 1, 2009 included a capital provision that specifically directed CBT
to increase and maintain a Leverage Capital ratio above 8 percent and Total Risk-based
Capital ratio above 10 percent.

The FDIC’s efforts to monitor CBT’s capital position and the bank’s response to
supervisory actions after its capital position fell below Well Capitalized included the
following:
                                                 I-18

 
 



       The October 27, 2008 examination revealed significant deterioration in the
        bank’s overall performance. CBT’s Total Risk-based Capital ratio declined to
        8.76 percent, and on February 9, 2009, the FDIC notified the bank that it was
        Adequately Capitalized for PCA purposes. The C&D also followed in
        May 2009.

       In response to the C&D, on June 10, 2009 CBT submitted a capital plan to the
        FDIC and the DBF for approval. The FDIC issued a letter on
        August 24, 2009 noting the bank’s capital plan appeared optimistic given
        CBT’s June 30, 2009 performance. The FDIC requested that an updated
        capital plan be submitted within 30 days. A revised capital plan was adopted
        by CBT on September 8, 2009 and submitted to the FDIC for approval.

       Once the FDIC started its onsite visitation in September 2009, examiners
        determined that CBT’s capital ratios had further declined. Capital no longer
        supported the risk profile of the bank. Loan charge-offs, an increasing ALLL,
        and operating losses had eroded the bank’s capital position. The bank was
        notified that it was Significantly Undercapitalized for PCA purposes. A PCA
        Directive, issued to the bank on September 21, 2009, noted that CBT was
        subject to restrictions on asset growth, dividends, other capital distributions,
        and management fees and required CBT to submit a capital restoration plan
        within 45 days of the receipt of the directive. CBT was further reminded that
        the bank was not allowed to accept, renew, or rollover any brokered deposits.
        CBT was also advised that the bank was not allowed to “solicit deposits by
        offering an effective yield that exceeds by more than 75 basis points the
        prevailing effective yields on insured deposits of comparable maturity in such
        institution’s normal market area or in the market area in which such deposits
        are being solicited.”

       Based on the September 2009 visitation, the FDIC issued a PCA Directive on
        November 3, 2009 informing the bank that it was Critically Undercapitalized
        as of September 30, 2009 for PCA purposes. The examiners notified CBT
        that the bank was immediately subject to the same restrictions associated with
        asset growth, dividends, other capital distributions, management fees, deposit
        yields, and brokered deposits that existed as a result of the prior PCA
        Directive. In addition, CBT was required to file a written capital restoration
        plan with the FDIC’s Regional Director within 30 days. CBT submitted an
        amended capital restoration plan to the FDIC on December 4, 2009 in
        response to the November 3, 2009 PCA Directive. Ultimately, regulators
        concluded that CBT would be unable to raise the level of capital required and,
        as a result, the bank was closed by the DBF on January 29, 2010.




                                        I-19

 
                                                                               Appendix 1

                    Objectives, Scope, and Methodology

Objectives

We conducted this performance audit to satisfy the requirements of section 38(k) of the
FDI Act, as amended by the Financial Reform Act, which provides, in general, that if the
Deposit Insurance Fund incurs a material loss with respect to an insured depository
institution, the Inspector General of the appropriate federal banking agency shall prepare
a report to that agency reviewing the agency’s supervision of the institution. The FDI
Act requires that the report be completed within 6 months after it becomes apparent that a
material loss has been incurred.

Our audit objectives were to (1) determine the causes of CBT’s failure and resulting
material loss to the DIF and (2) evaluate the FDIC’s supervision of the institution,
including implementation of the PCA provisions of section 38.

We conducted this performance audit from May 2010 to July 2010 in accordance with
Generally Accepted Government Auditing Standards (GAGAS). Those standards require
that we plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We
believe that the evidence obtained, as described in the Scope and Methodology section,
provides a reasonable basis for our findings and conclusions based on our audit
objectives.

Scope and Methodology

The scope of this audit included an analysis of CBT from 2006, until its failure on
January 29, 2010. Our work also included an evaluation of the regulatory supervision of
the institution over the same period. In some sections of this report, information prior to
2006 is included to provide perspective and context for later actions.

To accomplish our objectives, we performed the following procedures and
utilized the following techniques:

       Analyzed examination and visitation reports prepared by FDIC and DBF
        examiners from 2006 to 2009.

       Reviewed the following documentation:

           Financial institution data and correspondence maintained at DSC’s Atlanta
            Regional Office and Atlanta Field Office, as provided to Crowe Horwath LLP
            by DSC.

           Reports prepared by the Division of Resolutions and Receiverships and DSC
            relating to the bank’s closure.
         

                                            I-20

 
                                                                                 Appendix 1

                    Objectives, Scope, and Methodology


           Pertinent DSC policies and procedures.

       Interviewed the relevant FDIC officials having supervisory responsibilities
        pertaining to CBT, which included DSC examination staff.

       Interviewed appropriate officials from the DBF to discuss their historical
        perspective of the institution, its examinations, and other activities regarding the
        state’s supervision of the bank.

       Researched various banking laws and regulations.

Crowe Horwath LLP relied primarily upon the materials provided by the FDIC OIG and
DSC, including information and other data collected during interviews. Crowe Horwath
LLP did not perform specific audit procedures to ensure the information and data were
complete and accurate. Crowe Horwath LLP is, however, aware that Circular 12000.1,
Cooperation with the Office of Inspector General, dated September 28, 2007, requires
that all FDIC employees, contractors, and subcontractors cooperate with the OIG in order
for the OIG to carry out its statutory mandate. To that end, all employees, contractors,
and subcontractors must:

(1) Provide authorized representatives of the OIG immediate and unrestricted access to
all Corporation, receivership, contractor, and subcontractor personnel, facilities,
equipment, hard copy and electronic records, files, information systems, and other
sources of information when requested during the course of their official duties.

(2) Provide authorized representatives of the OIG immediate and unrestricted access to
any records or material available to any part of the FDIC.

Interviews were conducted to gain a better understanding of decisions made regarding the
supervisory approach to the institution and to clarify information and conclusions
contained in reports of examination and other relevant supervisory correspondence
between the FDIC and the bank. Crowe Horwath LLP relied on the information provided
in the interviews without conducting additional specific audit procedures to test such
information.

Internal Control, Reliance on Computer-processed Information,
Performance Measurement, and Compliance with Laws and Regulations

Consistent with the audit objectives, we did not assess DSC’s overall internal control or
management control structure. We relied on information in DSC systems, reports,
examination reports, and interviews of examiners to understand CBT’s management
controls pertaining to causes of failure and material loss as discussed in the body of this
report.
                                             I-21

 
                                                                               Appendix 1

                    Objectives, Scope, and Methodology

We obtained data from various FDIC systems but determined that information system
controls were not significant to the audit objectives and, therefore, did not evaluate the
effectiveness of information system controls. We relied on our analysis of information
from various sources, including reports of examination, correspondence files, and
testimonial evidence to corroborate data obtained from systems that were used to support
our audit conclusions.

The Government Performance and Results Act of 1993 (the Results Act) directs
Executive Branch agencies to develop a customer-focused strategic plan, align agency
programs and activities with concrete missions and goals, and prepare and report on
annual performance plans. For this material loss review, we did not assess the strengths
and weaknesses of DSC’s annual performance plan in meeting the requirements of the
Results Act because such an assessment is not part of the audit objectives. DSC’s
compliance with the Results Act is reviewed in OIG’s program audits of DSC operations.

Regarding compliance with laws and regulations, we performed tests to determine
whether the FDIC had complied with provisions of PCA and limited tests to determine
compliance with certain aspects of the FDI Act. The results of our tests are discussed,
where appropriate, in this report. In that regard, while not consequential to the overall
supervision of the institution, we note on page I-12 that the FDIC did not meet statutory
examination frequency requirements in 2008.

Additionally, we assessed the risk of fraud and abuse related to our objectives in the
course of evaluating audit evidence.

Related Coverage of Financial Institution Failures

On May 1, 2009, the OIG issued an internal memorandum that outlined major causes,
trends, and common characteristics of FDIC-supervised financial institution failures that
had resulted in a material loss to the DIF. The memorandum also indicated that the OIG
planned to provide more comprehensive coverage of those issues and make related
recommendations, when appropriate. Since May 1, 2009, the OIG has issued additional
MLR reports related to failures of FDIC-supervised institutions and these reports can be
found at www.fdicig.gov. In June 2010, the OIG initiated an audit, the objectives of
which are to (1) determine the actions that the FDIC has taken to enhance its supervision
program since May 2009, including those specifically in response to the May 2009
memorandum, and (2) identify trends and issues that have emerged from subsequent
MLRs.

In addition, with respect to more comprehensive coverage of specific issues, in May
2010, the OIG initiated an evaluation of the role and federal regulators’ use of the Prompt
Regulatory Action provisions of the FDI Act (section 38, PCA and section 39, Standards
for Safety and Soundness) in the banking crisis.

                                            I-22

 
                                                                                  Appendix 2

                              Glossary of Terms
 
Term                                              Definition
Acquisition,     ADC loans are a component of Commercial Real Estate that provide
Development,     funding for acquiring and developing land for future construction, and
and              providing interim financing for residential or commercial structures.
Construction
(ADC) Loans
Adversely        Assets subject to criticism and/or comment in an examination report.
Classified       Adversely classified assets are allocated on the basis of risk (lowest to
Assets           highest) into three categories: Substandard, Doubtful, and Loss.

Allowance for    The ALLL is an estimate of uncollectible amounts that is used to reduce the
Loan and Lease   book value of loans and leases to the amount that is expected to be
Losses (ALLL)    collected. It is established in recognition that some loans in the institutions
                 overall loan and lease portfolio will not be repaid. Boards of directors are
                 responsible for ensuring that their institutions have controls in place to
                 consistently determine the allowance in accordance with the institutions’
                 stated policies and procedures, generally accepted accounting principles,
                 and supervisory guidance.  

Call Report      Reports of Condition and Income, often referred to as Call Reports, include
                 basic financial data for insured commercial banks in the form of a balance
                 sheet, an income statement, and supporting schedules. According to the
                 Federal Financial Institutions Examination Council’s (FFIEC) instructions
                 for preparing Call Reports, national banks, state member banks, and insured
                 nonmember banks are required to submit a Call Report to the FFIEC’s
                 Central Data Repository (an Internet-based system used for data collection)
                 as of the close of business on the last day of each calendar quarter.

Cease and        A C&D is a formal enforcement action issued by a financial institution
Desist Order     regulator pursuant to 12 U.S.C. section 1818 to a bank or affiliated party to
(C&D)            stop an unsafe or unsound practice or a violation of laws and regulations. A
                 C&D may be terminated when the bank’s condition has significantly
                 improved and the action is no longer needed or the bank has materially
                 complied with its terms.

Commercial       CRE loans are land development and construction loans (including 1-to-4
Real Estate      family residential and commercial construction loans) and other land loans.
(CRE) Loans      CRE loans also include loans secured by multifamily property and nonfarm
                 nonresidential property, where the primary source of repayment is derived
                 from rental income associated with the property or the proceeds of the sale,
                 refinancing, or permanent financing of the property.


                                           I-23

 
                                                                                 Appendix 2

                             Glossary of Terms
 
 


Concentration   A concentration is a significantly large volume of economically related
                assets that an institution has advanced or committed to a certain industry,
                person, entity, or affiliated group. These assets may, in the aggregate,
                present a substantial risk to the safety and soundness of the institution.

FDIC’s          The FDIC’s supervision program promotes the safety and soundness of
Supervision     FDIC-supervised institutions, protects consumers’ rights, and promotes
Program         community investment initiatives by FDIC-supervised institutions. The
                FDIC’s Division of Supervision and Consumer Protection (DSC)
                 (1) performs examinations of FDIC-supervised institutions to assess their
                overall financial condition, management policies and practices (including
                internal control systems), and compliance with applicable laws and
                regulations and (2) issues related guidance to institutions and examiners.

Global Cash     A global cash flow analysis is a comprehensive evaluation of borrower
Flow Analysis   capacity to perform on a loan. During underwriting, proper global cash
                flow must thoroughly analyze projected cash flow and guarantor support.
                Beyond the individual loan, global cash flow must consider all other
                relevant factors, including: a guarantor’s related debt at other financial
                institutions, future economic conditions, as well as obtaining current and
                complete operating statements of all related entities. In addition, global
                cash flow analysis should be routinely conducted as a part of credit
                administration. The extent and frequency of global cash flow analysis
                should be commensurate to the amount of risk associated with the particular
                loan.

Material Loss   As defined by section 38(k)(2)(B) of the FDI Act, and as amended by the
                Financial Reform Act, for the period beginning January 1, 2010 and ending
                December 31, 2011, a material loss is defined as any estimated loss in
                excess of $200 million.

Nonaccrual      The status of an asset, often a loan, which is not earning the contractual rate
Status          of interest in the loan agreement, due to financial difficulties of the
                borrower. Typically, interest accruals have been suspended because full
                collection of principal is in doubt, or interest payments have not been made
                for a sustained period of time. Loans with principal and interest unpaid for
                at least 90 days are generally considered to be in a nonaccrual status.




                                          I-24

 
                                                                                  Appendix 2

                               Glossary of Terms
 
 


Offsite Review    The FDIC’s Offsite Review Program is designed to identify emerging
Program           supervisory concerns and potential problems so that supervisory strategies
                  can be adjusted appropriately. Offsite reviews are performed quarterly for
                  each bank that appears on the Offsite Review List. Regional management is
                  responsible for implementing procedures to ensure that Offsite Review
                  findings are factored into examination schedules and other supervisory
                  activities.

Peer Group        Institutions are assigned to 1 of 15 peer groups based on asset size, number
                  of branches, and whether the institution is located in a metropolitan or non-
                  metropolitan area.

Prompt            The purpose of PCA is to resolve the problems of insured depository
Corrective        institutions at the least possible long-term cost to the Deposit Insurance
Action (PCA)      Fund. Part 325, subpart B, of the FDIC Rules and Regulations, 12 Code of
                  Federal Regulations, section 325.101, et. seq., implements section 38,
                  Prompt Corrective Action, of the FDI Act, 12 United States Code section
                  1831(o), by establishing a framework for determining capital adequacy and
                  taking supervisory actions against depository institutions that are in an
                  unsafe or unsound condition. The following terms are used to describe
                  capital adequacy: (1) Well Capitalized, (2) Adequately Capitalized,
                  (3) Undercapitalized, (4) Significantly Undercapitalized, and (5) Critically
                  Undercapitalized.

                  A PCA Directive is a formal enforcement action seeking corrective action
                  or compliance with the PCA statute with respect to an institution that falls
                  within any of the three categories of undercapitalized institutions.

Special Mention   A Special Mention asset has potential weaknesses that deserve
Assets            management’s close attention. If left uncorrected, these potential
                  weaknesses may result in deterioration of the repayment prospects for the
                  asset or in the institutions credit position at some future date. Special
                  Mention assets are not adversely classified and do not expose an institution
                  to sufficient risk to warrant adverse classification.




                                           I-25

 
                                                                               Appendix 2

                             Glossary of Terms
 
 


Tier 1 (Core)   Defined in Part 325 of the FDIC Rules and Regulations, 12 C.F.R. section
Capital         325.2(v), as
                The sum of:
                • Common stockholder’s equity (common stock and related surplus,
                undivided profits, disclosed capital reserves, and foreign currency
                translation adjustments, less net unrealized losses on available-for-sale
                securities with readily determinable market values);
                • Non-cumulative perpetual preferred stock; and
                • Minority interest in consolidated subsidiaries;
                Minus:
                • Certain intangible assets;
                • Identified losses;
                • Investments in securities subsidiaries subject to section 337.4; and
                • Deferred tax assets in excess of the limit set forth in section 325.5(g).

Uniform Bank    The UBPR is an individual analysis of financial institution financial data
Performance     and ratios that includes extensive comparisons to peer group performance.
Report (UBPR)   The report is produced by the Federal Financial Institutions Examination
                Council for the use of banking supervisors, bankers, and the general public
                and is produced quarterly from Call Report data submitted by banks.

Uniform         Financial institution regulators and examiners use the Uniform Financial
Financial       Institutions Rating System (UFIRS) to evaluate a bank’s performance in six
Institutions    components represented by the CAMELS acronym: Capital adequacy,
Rating System   Asset quality, Management practices, Earnings performance, Liquidity
(UFIRS)         position, and Sensitivity to market risk. Each component, and an overall
                composite score, is assigned a rating of 1 through 5, with 1 having the least
                regulatory concern and 5 having the greatest concern.




                                         I-26

 
                                                                            Appendix 3

                                   Acronyms
 


    ADC      Acquisition, Development, and Construction

    ALLL     Allowance for Loan and Lease Losses

    C&D      Cease and Desist Order

    CAMELS   Capital, Asset Quality, Management, Earnings, Liquidity and Sensitivity to
             Market Risk

    CBT      Community Bank & Trust

    CEO      Chief Executive Officer

    CRE      Commercial Real Estate

    DBF      Georgia Department of Banking and Finance

    DIF      Deposit Insurance Fund

    DSC      Division of Supervision and Consumer Protection

    FDI      Federal Deposit Insurance

    FIL      Financial Institution Letter

    OIG      Office of Inspector General

    PCA      Prompt Corrective Action

    ROE      Report of Examination

    UBPR     Uniform Bank Performance Report

    UFIRS    Uniform Financial Institutions Rating System




                                            I-27

 
               Part II

OIG Evaluation of Management Response
OIG Evaluation of Management Response
After we issued our draft report, management officials provided additional information
for our consideration, and we revised our report to reflect this information, as appropriate.
On August 25, 2010, the Director, Division of Supervision and Consumer Protection
(DSC), provided a written response to the draft report. That response is provided in its
entirety on page II-2 of this report.

DSC reiterated the OIG’s conclusions regarding the causes of CBT’s failure and the
FDIC’s supervision of the bank. Additionally, DSC stated that it recognizes the threat
that institutions with high-risk profiles, such as CBT, pose to the DIF. According to
DSC, it continues to look for and implement improvements to its supervisory program
that focus on stabilizing an institution’s risk profile and strengthening its financial
condition. DSC issued Interagency Guidance on CRE Monitoring in 2006 and a
Financial Institution Letter to banks on Managing Commercial Real Estate
Concentrations in a Challenging Environment in 2008 that re-emphasized the importance
of robust credit risk-management practices for institutions with concentrated CRE
exposures and set forth broad supervisory expectations.




                                                                                         II-1
                                CORPORATION COMMENTS



Federal Deposit Insurance Corporation
  550 17th Street NW, Washington, D.C. 20429-9990               Division of Supervision and Consumer Protection

                                                                        August 25, 2010
TO:              Stephen Beard
                 Assistant Inspector General for Material Loss Reviews

                 /Signed/
FROM:            Sandra L. Thompson
                 Director

SUBJECT:         Draft Audit Report Entitled, Material Loss Review of Community Bank and Trust,
                 Cornelia, Georgia (Assignment 2010-039)

Pursuant to Section 38(k) of the Federal Deposit Insurance act (FDI Act), the Federal Deposit
Insurance Corporation’s Office of Inspector General (OIG) conducted a material loss review of
Community Bank and Trust (CBT), which failed on January 29, 2010. This memorandum is the
response of the Division of Supervision and Consumer Protection (DSC) to the OIG’s Draft Report
(Report) received on August 12, 2010.

CBT’s failure was due to inadequate Board and management oversight, specifically the absence of
an internal control environment commensurate with the risks resulting from high concentrations in
commercial real estate (CRE) and acquisition, development, and construction (ADC) loans. The
Board and management relied too heavily on the Chief Executive Officer’s decisions and expertise
rather than establishing sound practices and controls. CBT experienced substantial losses in the loan
portfolio and was unable to raise the capital necessary to remain solvent.

From 2006 to 2009, the FDIC and the Georgia Department of Banking and Finance conducted four
on-site risk management examinations and one visitation. The 2006 FDIC examination found that
weaknesses persisted in the credit administration area and recommended immediate corrective
action. The 2008 FDIC examination noted deterioration of CBT’s financial condition, weak risk
management practices, deficiencies in loan approval processes, and generally lax lending
administration. The examination also found that the concentration in CRE and ADC loans had
increased with insufficient Allowances for Loan and Lease Losses and that the Board and
management had failed to establish an appropriate risk management program commensurate with
CBT’s risk profile, business activities, and credit concentrations. As a result, FDIC issued a Cease
and Desist Order in 2009.

We recognize the threat that institutions with high risk profiles, such as CBT, pose to the Deposit
Insurance Fund. We continue to look for and implement improvements to our supervisory program
that focus on stabilizing an institution’s risk profile and strengthening its financial condition. DSC
issued Interagency Guidance on CRE Monitoring in 2006 and a Financial Institution Letter to banks
on Managing Commercial Real Estate Concentrations in a Challenging Environment in 2008 that
re-emphasized the importance of robust credit risk-management practices for institutions with
concentrated CRE exposures and set forth broad supervisory expectations.

Thank you for the opportunity to review and comment on the Report.




                                                                                                    II-2
